WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-19

Sina Kianpour

Wells Fargo Bank, N.A.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
[1] Please enter my appearance as Counsel of Record for all respondents.
[j] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

El I am a member of the Bar of the Supreme Court of the United States.
II] I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date:

7/8/19

(Type or print) Name

Kerry W. Franich
El Mr.

Firm

Ms.

0

Mrs.

❑ Miss

Severson & Werson

Address

19100 Von Karman Ave., Suite 700

City & State
Phone

0

Irvine, CA

949-225-7971

Zip 92621
.
E mail

kWf@severson.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC! Sing Kianpour

